No.
IN Tun

buweme ff.ourt of tbe Wntte! btuteg
Cenlos Louurnr, EsquIRn,
Petitioner,

v

UNrrno Sr:atns on'AunntcA, MICHapl RanolN, Lnn
StnAus, Gnneno SnxtoN, aNp RoNar,o ScSNECK,
Respondents

CERTIFICATE OF SERVICE
I, Andres Rivero, a member of the Bar of this Court, certify that on this 27th day
of April, 2020, three copies of the Petition for a Writ of Certiorari were sent by Federal

Express Overnight to:

Solicitor General of the United States
Room 561-6

Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
Counsel for Respondents United States
Of America, Michael Rardin, Lee Straus,
Gerard Sexton, and Ronald Schnech,

I further certify that all parties required to be served have been served

1

\

Andres Rivero
RIVERO MESTRE LLP
2525Ponce de Leon Blvd., Suite 1000
Miami, Florida 33134
(305) 445-2500
Counsel of Record for Petitioner

2

